Memorandum from the Office of the Inspector General



June 21, 2011

Anda A. Ray, WT 11A-K

FINAL REPORT – INSPECTION 2009-12991 – TVA'S GROUNDWATER MONITORING
AT COAL COMBUSTION PRODUCTS DISPOSAL AREAS



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Deana D. Scoggins, Senior Auditor,
at (423) 785-4822 or Greg R. Stinson, Director, Inspections, at (865) 633-7367. We
appreciate the courtesy and cooperation received from your staff during the audit.



Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

DDS:FAJ
Attachment
cc (Attachment):
      Cynthia M. Anderson, LP 5D-C                    William R. McCollum, Jr., LP 6A-C
      Brenda E. Brickhouse, LP 5U-C                   Richard W. Moore, ET 4C-K
      Robert M. Deacy, Sr., LP 5D-C                   Emily J. Reynolds, OCP 1L-NST
      Michael B. Fussell, WT 9B-K                     John M. Thomas III, MR 6D-C
      Kimberly S. Greene, WT 7B-K                     Robert B. Wells, WT 9B-K
      Peyton T. Hairston, Jr., WT 7B-K                Wendy Williams, WT 9B-K
      Tom Kilgore, WT 7B-K                            OIG File No. 2009-12991
                Tennessee Valley Authorrity
                Office of the Insspector Ge
                                          eneral
 

Insspecction
           n Reeporrt
     



                                                     

                                                     

 

 

 


TVA
 
   A’S GRO
       G OUNNDWWATEER
MOONITTORIING
            G AT COA
                   AL
COMMUS STIO
          ON P
             PRODDUC
                   CTS
DIS
  SPOSSAL AREEAS
 




 

 
 
 

 
                           Inspe
                               ection 2009-12991
                                          1, 2011
                                    June 21
Office of the Inspector General                                      Inspection Report




ACRONYMS AND ABBREVIATIONS
CCPs                       Coal Combustion Products
E&T                        Environment & Technology
EPA                        Environmental Protection Agency
GWPS                       Groundwater Protection Standard
MCL                        Maximum Contaminant Level
OIG                        Office of the Inspector General
TDEC                       Tennessee Department of Environment and Conservation
TVA                        Tennessee Valley Authority
UPL                        Upper Prediction Limit
USWAG                      Utility Solid Waste Activity Group


 
                                   




Inspection 2009-12991
Office of the Inspector General                                                                   Inspection Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 3

FINDINGS ......................................................................................................... 3

   TVA IS NOT PERFORMING MONITORING AS REQUIRED BY THE
   PERMITS IN CERTAIN CASES. ...................................................................... 4

   SEVEN OF EIGHT FOSSIL PLANTS WITH SOLID WASTE REQUIREMENTS
   TO MONITOR GROUNDWATER HAD EXCEEDANCES ................................ 6
        Two Plants in Tennessee (Cumberland and Gallatin) Had Exceedances
         That Resulted in Phase III Assessment ......................................................... 7
        Two Other Plants in Tennessee (Bull Run and John Sevier) Had Exceedances
         That Resulted in Phase II Assessment ........................................................ 10
        Three Other Plants (Kingston in Tennessee, Colbert in Alabama, and
         Shawnee in Kentucky) Had Exceedances That Are Being Monitored
         by State Officials ....................................................................................... 11

   TVA HAS COMMITTED TO GROUNDWATER MONITORING
   AT ALL FOSSIL PLANTS ............................................................................... 12

RECOMMENDATIONS ................................................................................ 13

MANAGEMENT'S RESPONSE .................................................................. 13


APPENDICES
A. OBJECTIVE, SCOPE, AND METHODOLOGY

B. POTENTIAL HEALTH EFFECTS

C. ADDITIONAL EXCEEDANCES AT KINGSTON, COLBERT, AND
   SHAWNEE

D. MEMORANDUM DATED MAY 19, 2011, FROM ANDA A. RAY TO
   ROBERT E. MARTIN



Inspection 2009-12991
                                  Ins
                                    spection 2009-1299
                                              2       91 –TVA’’s Ground
                                                                      dwater
                                Monito
                                     oring at Coal
                                              C    Com
                                                     mbustion Productss Disposa
                                                                              al
                                                     A
                                                     Areas
                                             EXECUTIVVE SUMM MARY

     Why the OIG
             O Did Th
                    his Review

           This rev
                  view was inittiated becau
                                          use of questiions raised d
                                                                   during congrressional
           testimony following the Kingston Ash Spill iin December 2008.

           The objectives of th his review weere to determmine whetheer the Tenne essee Valleyy
           Authoritty (TVA) has s (1) perform
                                            med groundw  water monitooring as presscribed by th
                                                                                              he
           permits and (2) foun  nd levels of constituentss monitored that exceeded regulatorry
                   nd, if so, imp
           limits an            plemented any required corrective a  actions.

     What the OIG Found
                      d

           During our
                    o review, wew found tha  at in some innstances TV VA was not pperforming
           monitorring as presc cribed by thee permits. AAdditionally, e
                                                                       exceedance es were foun  nd at
           eight off the nine fos
                                ssil plants whhere monito ring is being
                                                                      g conducted. TVA has tw    wo
           plants inn Tennessee e that have constituents
                                              c          si that exceed           based limits and
                                                                       ded health-b
           are worrking through h the correcttive action p rocess desccribed in Ten
                                                                                  nnessee
           Rule 12 200-1-7.ii Fin
                                nally, TVA innstalled 29 m
                                                         monitoring wwells at nine ssites in 2010
                                                                                                0 and
           has com mmitted to coonducting att least one ssampling eve ent at each ssite by the end of
           fiscal ye
                   ear 2011.

            TVA
               A is not perrforming monitoring
                                    m          as prescriibed by the
                                                                   e permits in
                certa
                    ain cases.
                            For calendar years 2008
                                                2      and 20009, TVA wa as monitoring g for the req
                                                                                                   quired
                             constitue
                                     ents and tes
                                                sting within th
                                                              he required time framess at ten coal
                             combusttion product (CCP) area  as at seven ffossil plants. However, T TVA
                             was not monitoring for
                                                 f all permitt-required coonstituents aat Cumberland
                             and Johnsonville Foossil Plants.
            Exce
                eedances found
                         f     at multiple
                                  m        fos
                                             ssil plants::
                            Gallatin and Cumberland Fossil Plants have    e had exceedances that
                             placed th
                                     hem in Phas  se III assesssment, whichh occurs wheen a health-
                             based groundwater protection sstandard is e   exceeded in Tennessee. As
                             detailed in the reporrt, there are multiple pha
                                                                           ases of asse
                                                                                      essment
                             depending on the magnitude of the exceeda     ance. Phase e III is the m
                                                                                                    most
                             severe phase.
                                     p        TVA is working tthrough the corrective acction processs, as
                                                            
i
      A constituentt is a chemical component of the coal combbustion productt that may be present in
      groundwater and can be an nalyzed by a lab.
ii
      Tennessee Rule
                  R    1200-1-7, Solid Waste Processing
                                              P         and Disposal, conttains Groundw
                                                                                      water
      Protection/Monitoring Stand
                                dards.
                                                                                                       Page i
                Ins
                  spection 2009-1299
                            2       91 –TVA’’s Ground
                                                    dwater
              Monito
                   oring at Coal
                            C    Com
                                   mbustion Productss Disposa
                                                            al
                                   A
                                   Areas
                           EXECUTIVVE SUMM MARY

               requiredd by Tennesssee Rule 12 00-1-7, and as part of th   he groundwaater
               quality assessment
                       a                       hat it is highlly unlikely a release cou
                                    has found th                                      uld
               impact loocal water wells.
                                   w
             Both the e Bull Run an
                                   nd John Sevvier Fossil Plants have b    been placed in
              Phase II assessmen   nt for exceed dances. In T Tennessee, an exceedance
              that initia
                        ates a Phasee II assessmment is a statistically sign
                                                                           nificant incre
                                                                                        ease
              above background le   evels for a cconstituent.
    TVA
       A has comm
                mitted to monitoring
                          m          at all fossil plants.
             TVA is a member off the Utility S
                                              Solid Waste A  Activity Grou up (USWAG G).
              USWAG   G has an actiion plan focu
                                               used on all ffacilities havving wells
              installed
                      d for monitoring groundwwater related
                                                          d to active CC   CP disposal
              areas. In December 2007, TVA                SWAG of its intent to end
                                              A notified US                          dorse
              the volunntary commitments presscribed in the  e action plan n. TVA
              personnel reconfirmed the comm   mitment duriing the coursse of this revview.

What the OIG Recom
                 mmends

  We recom
         mmend that the Senior Vice
                               V    Preside
                                          ent, Environm
                                                      ment & Tech
                                                                hnology:
    Continue plans to
                     o implementt monitoring at all active CCP dispossal areas.
    Conttinue with the
                      e assessme ent plan and initiate corre
                                                           ective action
                                                                       ns for
     Cumberland and  d Gallatin Fo
                                 ossil Plants.

TVA manag  gement prov vided written comments on a draft off this report, which are
reproducedd in their entirety in Appe
                                    endix D. TVA  A managem ment agreed with the
recommend  dations and provided various contexxtual and cla  arifying comm
                                                                         ments, which
                                                                                    h we
evaluated and
          a incorporrated into the  e final reportt as approprriate. Commments which were
not incorporated into the final versio
                                     on of the rep
                                                 port are disccussed below
                                                                         w.




                                                                                      P
                                                                                      Page ii
Office of the Inspector General                                                            Inspection Report


BACKGROUND
The Tennessee Valley Authority's (TVA) coal-fired generating facilities have been
the backbone of TVA’s power system since the 1950s. TVA has 59 operating
units at 11 fossil plant sites in three states in the Tennessee Valley. TVA’s coal-
fired generating facilities have 15,056 megawatts of capacity and generate nearly
two-thirds of the electricity TVA produces for its customers. TVA’s fossil plants
have produced an average of 95.5 billion kilowatt-hours of electricity per year
over the past ten years.

The burning of coal at TVA’s fossil plants produces coal combustion products
(CCPs). CCPs consist of fly ash, bottom ash, and gypsum. Currently, TVA ash
and gypsum are either stored in a landfill or a pond, disposed of off-site, or
beneficially used. Examples of beneficial use include using ash in structural fills
and gypsum in making wallboard. According to Environment & Technology
(E&T), if CCPs are stored in a pond, the CCPs are not governed by solid waste
regulations but are governed by National Pollutant Discharge Elimination System
permits.

CCPs contain heavy metals and other constituents that can migrate into
groundwater. High concentrations of constituents could potentially pose health
problems ranging from mild irritation to death, as shown in Appendix B.

If CCPs are stored in a landfill, the CCPs are regulated under solid waste
regulations in Tennessee and Kentucky, but not in Alabama. Solid waste
regulations in Tennessee and Kentucky require groundwater monitoring.

Alabama
Alabama legislation specifically states that CCPs are not to be regulated as solid
waste. Therefore, there are no solid waste permits for CCP disposal areas in
Alabama.

Tennessee
In Tennessee, CCPs in landfills are regulated as solid waste. Tennessee
Rule 1200-1-7, Solid Waste Processing and Disposal, contains Groundwater
Protection/Monitoring Standards. The regulations require that a groundwater
monitoring program include consistent sampling and analysis procedures that
provide an accurate representation of groundwater quality. Several CCP
disposal areas do not require a solid waste permit because they are classified as
ponds and not landfills.

Testing is performed to identify background values1 for selected parameters, or
constituents,2 as required by the permit. Additionally, the facility must monitor
                                                            
1
     Background levels of groundwater are constituent levels that are naturally occurring and not impacted by
     man-made sources.
2
     A constituent is a chemical component of the CCP that may be present in groundwater and can be
     analyzed by a lab. 
Inspection 2009-12991                                                                                 Page 1
Office of the Inspector General                                                             Inspection Report


semiannually for an approved list of constituents after background values are
established. If an exceedance for a constituent is identified during monitoring,
the facility can be placed into an assessment, which usually requires increased
monitoring, and can result in corrective actions.

According to Tennessee Department of Environment and Conservation (TDEC)
guidance,3 an assessment monitoring program is required whenever a
statistically significant increase above background values has been determined
for any of the approved list of constituents. The assessment monitoring program
has three phases:

 Phase I involves an initial assessment sampling to identify additional
  constituents that have not been monitored previously and begins background
  sampling for any newly identified constituents.
 Phase II continues semiannual monitoring for all permitted constituents and
  any additional constituents identified in Phase I. If the concentrations of any of
  the approved constituents are above background values, but all concentrations
  are below the groundwater protection standard (GWPS),4 the facility must
  continue assessment monitoring in accordance with this phase.
 Phase III occurs when any constituent is above its groundwater protection
  standard. Phase III involves both an assessment of groundwater quality and
  development of corrective actions.

Kentucky
Kentucky regulations specify how groundwater is to be monitored as well as what
constituents are to be tested. In Kentucky, CCPs in landfills are to be treated as
special waste.5 The regulations require a groundwater monitoring plan to
accurately analyze groundwater quality and characterize regional and local
groundwater flow.

Testing is performed to identify background values for selected parameters, or
constituents, as required by the regulations. Additionally, the facility must
perform monitoring semiannually for an approved list of constituents after
background values are established. If an exceedance is identified during
monitoring for a constituent, the facility can be placed into an assessment.




                                                            
3
        Guidance related to groundwater monitoring can be found in TDEC’s Ground Water Monitoring Guidance
      for Solid Waste Landfill Units Policy (Guidance).
4
      The groundwater protection standard shall be either: (1) the Maximum Contaminant Level for
      constituents with a Maximum Contaminant Level as listed in the regulations, (2) the background
      concentration for constituents not assigned a Maximum Contaminant Level, or (3) the background
      concentration for constituents for which the background level is higher than the established Maximum
      Contaminant Level or health-based level.
5
      401 Kentucky Administrative Regulation 45.
Inspection 2009-12991                                                                                 Page 2
Office of the Inspector General                                                              Inspection Report


In Kentucky, when sampling and analysis identify one or more constituents
above the Maximum Contaminant Level6 or the statistical limit when there is no
Maximum Contaminant Level, a groundwater assessment plan should be
submitted within 30 days, and corrective action measures must follow once the
agency has approved the plan.7 An extension for the time frame to submit the
groundwater assessment plan can be granted.

OBJECTIVE, SCOPE, AND METHODOLOGY
This review was initiated because of questions raised during congressional
testimony following the Kingston Ash Spill in December 2008. The objectives of
this review were to determine whether TVA has (1) performed groundwater
monitoring as prescribed by the permits and (2) found levels of constituents
monitored that exceeded regulatory limits and, if so, implemented any required
corrective actions.

The scope of our review included groundwater monitoring for calendar
years 2008 and 2009 at TVA fossil plant CCP disposal areas. It did not include
monitoring of surface discharges at ponds under National Pollutant Discharge
Elimination System regulations. This review was conducted in accordance with
the “Quality Standards for Inspections.”8

To achieve our objectives, we interviewed key personnel and obtained and
analyzed information related to groundwater monitoring, regulations, and permits.
For additional details of work performed, see Appendix A.

FINDINGS
During our review, we found that in some instances TVA has not been
performing monitoring as prescribed by the permits. Additionally, exceedances
were found at the majority of fossil plants where monitoring is being conducted.
TVA has two plants in Tennessee with constituents that have exceeded health-
based limits, and the plants are working through the corrective action process
described in Tennessee Rule 1200-1-7. Finally, TVA installed monitoring wells at
all remaining active CCP disposal areas in 2010.




                                                            
6
      The Maximum Contaminant Level is the maximum allowable amount of a contaminant in drinking water
      that is delivered to the consumer. 
7
      401 Kentucky Administrative Regulation 45:160. 
8
     Council of the Inspectors General on Integrity and Ethics' "Quality Standards for Inspections" issued in
     2005.
Inspection 2009-12991                                                                                   Page 3
Office of the Inspector General                                       Inspection Report


TVA IS NOT PERFORMING MONITORING AS REQUIRED BY THE
PERMITS IN CERTAIN CASES

Through 2010, TVA had been conducting groundwater monitoring related to CCP
disposal areas only when required by permit or other state requirements, with the
exception of voluntary biannual monitoring at Allen Fossil Plant. TVA has nine
solid waste permits related to CCP disposal areas, eight of which are monitored
(one is for a dredge cell at Johnsonville Fossil Plant that was not constructed). In
addition to the eight permitted areas that are monitored, TVA has four
nonpermitted areas that are monitored as a requirement of the state in which the
facility is located.

For 10 of the 12 monitored areas, we found that TVA was monitoring the required
constituents and meeting the required sampling time frames for calendar years
2008 and 2009. However, for the remaining two areas, monitoring was not
performed for all permit-required constituents. At Johnsonville, for the Dupont
Dredge Cell, neither nitrates nor chemical oxygen demand were included in the
monitored constituents. At Cumberland Fossil Plant, chemical oxygen demand
was not being monitored. TDEC personnel said that TVA should initiate
monitoring for those constituents and request a permit modification to eliminate
the testing requirement for those constituents if appropriate. On May 9, 2011,
TVA requested a minor modification of the permits at both Cumberland and
Johnsonville to remove the constituents that were not being monitored. The
Office of the Inspector General (OIG) contacted TDEC personnel, and they
indicated the minor modification would be accepted.




Inspection 2009-12991                                                           Page 4
Office of the Inspector General                                          Inspection Report


Figure 1 details information on required and actual monitoring at the TVA plants.

Figure 1: Monitoring Requirements and Performance by Plant
                                                         Current
                                          Number of                    Monitoring
                           Permit/                       Required
     Location                            Constituents                 Requirements
                          Document                      Monitoring
                                         to Be Tested                     Met
                                                        Frequency
Bull Run Fossil
                        IDL 103-808          20         Semi-annual       Yes
Plant - Dry Stack
Bull Run -
                        IDL 01-0208          25         Semi-annual       Yes
Gypsum Area
Cumberland
Fossil Plant - Fly
                        IDL 81-102-
Ash Stack and                                20          Quarterly        No
                        0086
Gypsum Dredge
Cell
Gallatin Fossil
Plant -                 Post Closure
                                             17          Quarterly        Yes
Abandoned Ash           Plan
Disposal Area
Johnsonville
Fossil Plant -          IDL 43-0082          20         Semi-annual       No
Dupont Dredge
Cell
Johnsonville -          Closure/
South Rail Loop         Post Closure         17         Semi-annual       Yes
Area                    Plan
John Sevier
Fossil Plant - Fly      IDL 37-097           36         Semi-annual       Yes
Ash Stack
Kingston Fossil
Plant - Fly Ash         IDL 73-0094          25         Semi-annual       Yes
Dredge Cell
Kingston -
Gypsum Dredge           IDL 73-0211          17         Semi-annual       Yes
Cell
Kingston - Ash          Ash Processing
Processing Area         Area
                        Construction         17          Quarterly        Yes
                        and Operation
                        Plan
Shawnee Fossil
Plant - Dry Ash         073-0041             12         Semi-annual       Yes
Stack
Colbert Fossil          Alabama Risk-
Plant - Plant Wide      based
                                             18         Semi-annual       Yes
                        Corrective
                        Action

Source: Developed by TVA OIG based on information from TVA.



Inspection 2009-12991                                                              Page 5
Office of the Inspector General                                                                 Inspection Report


Additional information related to monitoring frequencies is noted below:

 Bull Run - For the Dry Stack, quarterly monitoring was performed for calendar
  year 2009 because a replacement well was added.
 Cumberland - The permit requires monitoring at least every six months.
  However, since Cumberland was placed in Phase III assessment in
  February 2009, the requirements have changed, and monitoring must be done
  quarterly.
 Gallatin - The Post Closure Plan requires monitoring at least once every
  12 months. However, since Gallatin was placed in a Phase III assessment in
  February 2009, the requirements have changed, and monitoring must be
  performed quarterly.
 Kingston - The Ash Processing Area was not constructed until 2009.
  Additionally, monthly testing was conducted at the Ash Processing Area for the
  last several months in calendar year 2009 at the request of the Environmental
  Protection Agency and TVA personnel on-site.
 Shawnee - For the first quarter of 2008, Shawnee’s permit required testing for
  seven constituents. The permit was then modified, which increased the
  number of constituents to 12. Semiannual testing was required for the first half
  of calendar year 2008 and then switched to quarterly to determine baseline
  data for a new well.
Allen does not currently have any landfill permits; however, TVA has been
voluntarily testing groundwater for certain constituents since 1988. According to
TVA E&T personnel, the city of Memphis’ water supply comes from an aquifer
that runs under Allen. TVA E&T personnel said that monitoring was conducted
biannually at Allen between 1988 and 2008, but beginning in 2011, monitoring
will be conducted semiannually.

SEVEN OF EIGHT FOSSIL PLANTS WITH SOLID WASTE
REQUIREMENTS TO MONITOR GROUNDWATER HAD
EXCEEDANCES
We reviewed groundwater testing provided by TVA E&T personnel to identify
plants where constituent levels were above statistical9, Maximum Contaminant
Level, or groundwater protection standard levels. We found that TVA has had
exceedances at seven TVA fossil plants with solid waste requirements to monitor
groundwater, as follows:

 Two Tennessee plants, Cumberland and Gallatin, had exceedances that
  resulted in Phase III assessment, which occurs when a health-based standard
  is exceeded. Those plants are working through the corrective action process
  described in Tennessee Rule 1200-1-7.
                                                            
9
        In Tennessee, TVA is using an upper prediction limit (UPL), which is a method used to statistically
        evaluate monitoring data to see if current data exceed historical levels. 
Inspection 2009-12991                                                                                         Page 6
Office of the Inspector General                                                           Inspection Report


 Two other Tennessee plants, Bull Run and John Sevier, had exceedances that
  resulted in Phase II assessment, which occurs when there is a statistical
  exceedance.
 Three other plants (Kingston in Tennessee, Colbert in Alabama, and Shawnee
  in Kentucky) had exceedances that are being monitored by state officials.

While Allen does not have a solid waste requirement for monitoring, voluntary
testing has been performed at Allen, and some elevated levels of constituents
have been found. At the time of the last testing, Allen’s arsenic levels did not
exceed the Maximum Contaminant Level (MCL), which was 50 ug/L.10 The
Maximum Contaminant Level for arsenic was lowered to 10 ug/L later that year
and remains at 10 ug/L today. According to TVA’s groundwater monitoring report,
Allen has had a history of arsenic levels above the Maximum Contaminant Level of
10 ug/L, dating back to 1988, but no levels exceeded the Maximum Contaminant
Level in place at the time of the testing. Testing has not been performed at Allen
since the Maximum Contaminant Level was lowered. Specifically, when
comparing Allen’s arsenic to the current Maximum Contaminant Level of 10 ug/L,
levels in two of the last five biannual sampling events met or exceeded the current
Maximum Contaminant Level. Elevated levels of boron and sulfate indicated
probable ash impoundment releases and migration. Concentrations of arsenic,
boron, and sulfate in that well have been historically higher than the background
data. According to TVA personnel, these levels have not been reported to TDEC
because the testing was not required.

Two Plants in Tennessee (Cumberland and Gallatin) Had Exceedances That
Resulted in Phase III Assessment
As noted above, TVA has two plants, Cumberland and Gallatin, that have been
placed in a Phase III assessment11 by TDEC. These assessments were based
on sampling that occurred in September 2008 as a follow-up confirmation of
results from the July 2008 sampling for Cumberland and August 2008 sampling
for Gallatin.

TDEC’s Guidance states that Phase III assessment requires the development of
a Groundwater Quality Assessment Plan, which should be submitted no later
than 45 days after a constituent exceeds the groundwater protection standard.
Also, an assessment of corrective measures is to be initiated within
90 days. The policy also states that TDEC will issue a Notice of Violation at the
time the assessment is initiated. However, TDEC personnel noted that the
above policy has room for discretion and that it would be impossible to meet the
45- and     90-day requirements. TDEC personnel also noted that they were not
required to issue a Notice of Violation and chose not to as long as TVA was
cooperative and working toward making a quality plan.

                                                            
10
     ug/L is micrograms per liter.
11
     TVA received official notification on February 23, 2009, that an Assessment for Groundwater
     Contamination Program would be required within 90 days, indicating that both plants were being placed
     into Phase III assessment.
Inspection 2009-12991                                                                               Page 7
Office of the Inspector General                                                                                    Inspection Report


As shown in Figure 2, Gallatin’s Groundwater Quality Assessment Plan took
approximately 17 months to complete.

Figure 2: Information Regarding Groundwater Quality Assessment Plans
          at Cumberland and Gallatin
                                Target Date
                                                               Actual Date of
                                    for
                                                               Groundwater
                                Groundwater                                            TVA           Corrective           Other
  Locations                                                       Quality
                                  Quality                                         Determination       Actions          Information
                                                                Assessment
                                Assessment
                                                                   Plan
                                   Plan12
                                                                                  Highly unlikely
                                                               At this time a
                                                                                  a release could                      Two nearby
                                                               formal draft has
                                                                                  impact any local   Not yet           wells are to
  Cumberland                     August 28, 2009               not been
                                                                                  groundwater        identified.       be
                                                               submitted to
                                                                                  well or spring                       monitored.
                                                               TDEC.13
                                                                                  users.
                                                                                  Highly unlikely
                                                                                  a release could
                                                                                                     Not yet
  Gallatin                      July 30, 2009                  August 6, 2010     impact any
                                                                                                     identified.14
                                                                                  water wells in
                                                                                  the vicinity.

Source: Developed by TVA OIG based on information from TVA.




                                                            
12
      Target dates identified in a March 31, 2009, letter from TVA to TDEC.
13
      According to E&T personnel, an informal draft of the Cumberland Groundwater Assessment Plan was
      submitted on November 9, 2010. Also, E&T personnel stated that it was agreed with TDEC to delay
      submittal of Cumberland’s Groundwater Assessment Plan until Gallatin’s was finalized.
14
      TVA E&T personnel told us the likely corrective action at Gallatin would be to implement a full cap for the
      pond. 
Inspection 2009-12991                                                                                                        Page 8
Office of the Inspector General                                             Inspection Report


Figures 3 and 4 note the exceedances found at both plants for calendar
years 2008 and 2009.

Figure 3: Cumberland Exceedances (Calendar Years 2008 and 2009)
              Cumberland Exceedances for Dry Ash and Gypsum Disposal Areas
Constituent            Report Dates                # Wells       Type of Exceedance
                       January 2009                 1 of 7       UPL and MCL
                                                                 UPL, MCL, and
                       July 2009                    3 of 7
Arsenic                                                          GWPS
                                                                 UPL, MCL, and
                       October 2009                 2 of 7
                                                                 GWPS
                       January 2008
                       July 2008                    1 of 7       UPL and MCL
Selenium               January 2009
                       April 2009                                UPL, MCL, and
                                                    1 of 7
                       July 2009                                 GWPS
                            April 2009                                UPL, MCL, and
Vanadium                                               1 of 7
                            July 2009                                 GWPS

Source: Developed by TVA OIG based on information from TVA.


Figure 4: Gallatin Exceedances (Calendar Years 2008 and 2009)
                    Gallatin Exceedances for the Inactive Ash Disposal Area
Constituent               Report Dates                  # Wells         Type of Exceedance
                          February 2008
                          August 2008                    1 of 3         MCL
                          February 2009
Beryllium                   April 2009
                                                       1 of 3         GWPS
                            July 2009
                            October 2009               1 of 4         GWPS
                            August 2008                1 of 3         MCL
Cadmium                     April 2009                 1 of 3         GWPS
                            October 2009               1 of 4         GWPS
                            February 2008
                            August 2008                1 of 3         MCL
                            February 2009
Nickel
                            April 2009
                                                       1 of 3         GWPS
                            July 2009
                            October 2009               1 of 4         GWPS
                            April 2009
                                                       1 of 3         GWPS
Vanadium                    July 2009
                            October 2009               1 of 4         GWPS

Source: Developed by TVA OIG based on information from TVA.



Inspection 2009-12991                                                                 Page 9
Office of the Inspector General                                       Inspection Report


As noted in Figure 3, the January 2008 report for Cumberland had a Maximum
Contaminant Level exceedance for selenium that should have triggered an
assessment. Additionally, Gallatin had Maximum Contaminant Level
exceedances in February 2008 for beryllium and nickel that should have
triggered assessments. These exceedances did not result in assessments.

In addition, TVA and TDEC personnel disagree on an issue regarding statistical
calculations that would include both Gallatin and Cumberland. TVA and TDEC
have been working together to resolve this issue, but TDEC personnel have said
that TVA has been slow to address the issue. A meeting between TVA and
TDEC led TDEC to believe that TVA would hire a third party to independently
evaluate the issue. TVA personnel, however, have stated they were writing a
letter to TDEC in an effort to resolve the issues before bringing in a third party.
TVA personnel told us that if TDEC issues a written notification requiring them to
conform to TDEC’s opinion on the statistical issue, they will comply.
Subsequently, TVA hired an independent third party to evaluate the issue.

Two Other Plants in Tennessee (Bull Run and John Sevier) Had Exceedances
That Resulted in Phase II Assessment
TDEC has placed TVA in Phase II assessment at Bull Run and John Sevier.
TVA received official notification on July 17, 2009, that Bull Run was being
placed into Phase III due to a groundwater protection standard exceedance for
cobalt at the Gypsum/Coal Ash Landfill Area. However, TVA provided TDEC
with a Cobalt Investigation Report that satisfied TDEC that the cobalt
exceedance was related to a legacy condition that was ongoing prior to the
establishment and operation of the Gypsum/Coal Ash Landfill Area. TVA was
taken out of Phase III and placed into Phase II based on statistical exceedances
for cadmium and nickel. Additionally, on January 7, 2010, Bull Run received
notification that the Dry Ash Disposal Area was being placed in Phase II
assessment due to an arsenic exceedance.

TVA received official notification on April 5, 2007, that John Sevier was being
placed into Phase II due to statistical exceedances for alkalinity, pH, specific
conductance, and strontium. This decision was based on a confirmation
sampling event that took place on December 8, 2006, after which TVA requested
that John Sevier be placed into Phase II.




Inspection 2009-12991                                                         Page 10
Office of the Inspector General                                                                   Inspection Report


As Figure 6 shows, John Sevier has had groundwater protection standard
exceedances for cadmium. Discussions with E&T personnel noted that for each
time, the resampling that followed within a month did not have the same results
and may have been caused by analytical interferences. In addition, the
resampling for the arsenic exceedance did not show levels above the Maximum
Contaminant Level.

Figures 5 and 6 note the exceedances found at both plants for calendar
years 2008 and 2009.

Figure 5: Bull Run Exceedances (Calendar Years 2008 and 2009)
                                    Bull Run Exceedances for Gypsum/Coal-Ash Landfill
Constituent                                 Report Dates                 # Wells         Type of Exceedance
Cadmium                                     May 2009                      2 of 5         UPL
                                            May 2009                      1 of 5         UPL and GWPS
Cobalt
                                            November 2009                 1 of 5         GWPS
Fluoride                                    May 2009                      1 of 5         UPL
Nickel                                      May 2009                      1 of 5         UPL

Source: Developed by TVA OIG based on information from TVA.


Figure 6: John Sevier Exceedances (Calendar Years 2008 and 2009)
                                              John Sevier Dry Ash Landfill Exceedances
Constituent                                 Report Dates                 # Wells         Type of Exceedance
                                            April 2008
                                            October 2008
Alkalinity                                                                1 of 6         UPL
                                            April 2009
                                            October 2009

Arsenic                                     April 2009             In the Leachate15     MCL
                                                                   Collection System
Barium                                      April 2008                      1 of 6       UPL
                                            October 2008
Cadmium                                                                   1 of 6         GWPS
                                            April 2009

Source: Developed by TVA OIG based on information from TVA.

Three Other Plants (Kingston in Tennessee, Colbert in Alabama, and
Shawnee in Kentucky) Had Exceedances That Are Being Monitored by State
Officials
Additional exceedances have been found at Kingston, Colbert, and Shawnee.
Currently, all three locations are continuing to be monitored, and results are
reported to state officials. Elevated levels of arsenic have also been found at
Allen.
                                                            
15
        Leachate is the water that flows through (and out of) the ashfill, plus the material and/or chemical
        compounds that get caught up in that water. 
Inspection 2009-12991                                                                                      Page 11
Office of the Inspector General                                                            Inspection Report


At Kingston, there was a Maximum Contaminant Level exceedance for arsenic in
June 2009. However, additional monitoring on a monthly basis from September
through December was performed, and the exceedance was not repeated.
Because the exceedance was not repeated, it did not result in any of TDEC’s
three levels of assessment.

Alabama does not require a solid waste permit for CCP disposal areas.
However, according to E&T, site-wide monitoring at Colbert has been conducted
due to prior issues with a sink hole. TVA began an Alabama Risk-based
Corrective Action process to determine if contamination from the metal cleaning
pond at Colbert has affected human health or the environment. The October
2009 monitoring report noted that groundwater monitoring in the vicinity of coal
ash disposal areas showed limited evidence of contamination by ash
leachate. This report was completed as part of the Alabama Risk-based
Corrective Action process. The report identified exceedances of ammonia, iron,
and manganese at a well located within former Ash Pond 1 and noted that the
iron and manganese exceedances at the well could result from ash leachate or
natural sources.

Shawnee had Maximum Contaminant Level exceedances for boron repeated
throughout the two years of monitoring reports that were reviewed. However, the
monitoring reports noted that the data used in computing the mean boron value
is over 17 years old. Additionally, E&T personnel have said that background
data has been insufficient to monitor for statistical exceedances. According to
E&T, TVA has installed new monitoring wells at Shawnee and developed
background levels. Background levels are required by Kentucky regulations and
are used to determine exceedances. The exceedances for boron did not result in
an assessment.

More information related to these exceedances can be found in Appendix C.

TVA HAS COMMITTED TO GROUNDWATER MONITORING AT
ALL FOSSIL PLANTS
TVA is a member of the Utility Solid Waste Activity Group (USWAG).16 USWAG
created a Utility Industry Action Plan for the Management of Coal Combustion
Products in October 2006. The focus of USWAG’s action plan was to make sure
that utilities had installed wells for monitoring. In December 2007, TVA notified
USWAG of its intent to endorse the voluntary commitments prescribed in the
action plan. TVA personnel confirmed its commitment to follow the action plan
as demonstrated by TVA installing 29 wells at nine sites in 2010. TVA plans to
conduct at least one sample event at all sites by the end of 2011.


                                                            
16
     USWAG is an association of the Edison Electric Institute, the American Public Power Association, the
     National Rural Electric Cooperative Association, and approximately 80 electric utility operating
     companies. 
Inspection 2009-12991                                                                               Page 12
Office of the Inspector General                                      Inspection Report


USWAG’s Action Plan describes the industry’s commitment to:

 Adopt groundwater performance standards at facilities that manage CCPs.
 Implement a comprehensive monitoring program to measure conformance
  with the groundwater performance standards at CCP facilities.
 Ensure that CCPs are not placed in sand and gravel pits without appropriate
  engineering controls.
 Consider the option of using dry-handling technology prior to constructing a
  new landfill or surface impoundment to manage fly ash on their property.

USWAG recommends that each CCP impoundment have at least one
background water quality point and three downgradient sampling sites.

RECOMMENDATIONS
We recommend that the Senior Vice President, E&T:

1. Continue plans to implement monitoring at all active CCP disposal areas.
2. Continue with the assessment plans and initiate corrective actions for
   Cumberland and Gallatin.


MANAGEMENT'S RESPONSE
TVA management provided written comments on a draft of this report, which are
reproduced in their entirety in Appendix D. TVA management agreed with the
recommendations and provided various contextual and clarifying comments,
which we evaluated and incorporated into the final report as appropriate.
Comments which were not incorporated into the final version of the report are
discussed below.

TVA management recommended a change in three sections of the report that
detailed the OIG's finding regarding all required constituents at Cumberland and
Johnsonville not being monitored. While the OIG has added information to the
report showing that TVA has taken actions to have the permits modified for both
plants, the OIG did not make all recommended wording changes suggested by
TVA management. TVA management suggested adding wording stating that for
the two plants, "monitoring was according to TDEC agreed parameters and the
regulations." The OIG was unable to obtain any documentation for either of
these two plants showing an agreement between TDEC and TVA to reduce the
permit-required constituents. Additionally, while the regulations do require a
minimum of 17 specific constituents to be monitored, the regulations also require
that the groundwater monitoring program established in the permit be followed.
The constituents not being monitored by TVA were part of the permit
requirements for each site.

Inspection 2009-12991                                                        Page 13
Office of the Inspector General                                    Inspection Report


TVA management suggested changing the number of constituents to be tested
for Cumberland and Johnsonville to 17. However, as discussed above, the OIG
maintains that both plants should have been testing for all permit-required
constituents.

TVA management suggested additional wording related to the amount of time it
took to develop Gallatin's Groundwater Quality Assessment Plan. TVA
management's suggested change states, "While an agreement was made with
TDEC to submit both of the Assessment Plans, TDEC later required
'Groundwater Detection Monitoring Plans' to be completed for both facilities, and
approved prior to submitting the Assessment Plans (AP)." However, according to
documentation provided to the OIG, TVA was notified on February 23, 2009, that
both Cumberland and Gallatin were being placed into assessment. In a follow-up
letter on March 31, 2009, TVA outlined completion dates for both the
Assessment Plans and Groundwater Monitoring Plans at that time.

TVA management stated that they did not know where we got the information
that "two nearby wells are to be monitored" as part of the groundwater quality
assessment plan at Cumberland. After a follow-up from the OIG, E&T personnel
stated they had previously misunderstood the comment and agreed that two off-
site wells near Cumberland will be sampled at least once.




Inspection 2009-12991                                                      Page 14
                                                                   APPENDIX A
                                                                    Page 1 of 1 

OBJECTIVE, SCOPE, AND METHODOLOGY
This review was initiated because of questions raised during congressional
testimony following the Kingston Ash Spill in December 2008. The objectives of
this review were to determine whether the Tennessee Valley Authority (TVA) has
(1) performed groundwater monitoring as prescribed by the permits and (2) found
levels of constituents monitored that exceeded regulatory limits and, if so,
implemented any required corrective actions.

To achieve our objectives, we:

 Interviewed key personnel to identify information related to groundwater
  monitoring, regulations, and permits.
 Reviewed solid waste regulations for Alabama, Tennessee, and Kentucky to
  identify testing requirements.
 Reviewed all solid waste disposal permits related to coal combustion product
  (CCP) disposal areas to determine required testing.
 Reviewed Groundwater Monitoring Reports for all TVA fossil plant CCP
  disposal areas for calendar years 2008 and 2009 to:
   - Determine if the groundwater is being monitored for all required
     constituents.
   - Identify potential exceedances and corrective actions.

The scope of our review included groundwater monitoring for calendar
years 2008 and 2009 at TVA fossil plant CCP disposal areas. It did not include
monitoring of surface discharges at ponds under National Pollutant Discharge
Elimination System regulations. This review was conducted in accordance with
the “Quality Standards for Inspections.”
                                                                              APPENDIX B
                                                                               Page 1 of 2 

The following chart shows the potential health effects of any constituent where an
exceedance was identified in calendar years 2008 and 2009 monitoring reports.
The information in the chart was found on the Environmental Protection Agency
(EPA) and Centers for Disease Control and Prevention Web sites.

Potential Health Effects
    Constituent                                    Health Effects
Aluminum                   Only very small amounts of aluminum that a person may inhale,
                           ingest, or have skin contact with will enter the bloodstream. Some
                           people with kidney disease store a lot of aluminum in their bodies
                           and sometimes develop bone or brain diseases, which may be
                           caused by the excess aluminum. Some studies show that people
                           exposed to high levels of aluminum may develop Alzheimer’s
                           disease, but other studies have not found this to be true. It is
                           uncertain whether aluminum causes Alzheimer’s disease.
Ammonia                    Exposure to high levels of ammonia can cause irritation and
                           serious burns on the skin and in the mouth, throat, lungs, and
                           eyes. Exposures to very high levels can cause death.
Antimony                   Chronic exposure well in excess of the Maximum Contaminant
                           Level (MCL) may cause increases in blood cholesterol and
                           decreases in blood sugar.
Arsenic                    Arsenic has been linked to cancer of the bladder, lungs, skin,
                           kidney, nasal passages, liver, and prostate. It has also shown
                           noncancer effects, including thickening and discoloration of skin,
                           stomach pain, nausea, vomiting, diarrhea, numbness in the hands
                           and feet, partial paralysis, and blindness.
Barium                     Barium has been found to potentially cause gastrointestinal
                           disturbances and muscular weakness when people are exposed to
                           it at levels above the EPA drinking water standards for relatively
                           short periods of time. Some people who drink more barium than
                           background levels found in food and water for a short period may
                           experience vomiting, abdominal cramps, diarrhea, difficulties in
                           breathing, increased or decreased blood pressure, numbness
                           around the face, and muscle weakness. Drinking very large
                           amounts of barium compounds that easily dissolve can cause
                           changes in heart rhythm or paralysis and possibly death.
Beryllium                  Swallowing beryllium has not been reported to cause effects in
                           humans because very little beryllium is absorbed from the stomach
                           and intestines.
Boron                      Exposure to large amounts of boron over short periods of time can
                           affect the stomach, intestines, liver, kidney, and brain and can
                           eventually lead to death.
Cadmium                    EPA has found that cadmium can potentially cause a variety of
                           effects from exposure above the Maximum Contaminant Level for
                           short periods of time, including nausea, vomiting, diarrhea, muscle
                           cramps, salivation, sensory disturbances, liver injury, convulsions,
                           shock, and renal failure. Cadmium has the potential to cause
                           kidney, liver, bone, and blood damage from lifetime exposures
                           above the Maximum Contaminant Level.
Chromium                   Some people who use water containing chromium well in excess
                           of the Maximum Contaminant Level over many years could
                           experience allergic dermatitis or skin ulcers. An increase in
                           stomach tumors was observed in humans exposed to certain
                           chromium compounds in drinking water.
                                                                           APPENDIX B
                                                                            Page 2 of 2 

Potential Health Effects (cont.)
    Constituent                                 Health Effects
Cobalt                  Exposure to high levels of cobalt can result in lung and heart
                        effects and dermatitis.
Fluoride                In adults, exposure to high levels of fluoride can result in denser
                        bones. However, if exposure is high enough, these bones may be
                        more fragile and brittle and therefore at greater risk of breaking.
Iron                    None identified.
Manganese               Reports of adverse effects in humans from ingestion of excess
                        manganese are limited.
Nickel                  The most common harmful health effect of nickel in humans is an
                        allergic reaction.
Selenium                Short-term oral exposure to high concentrations of selenium may
                        cause nausea, vomiting, and diarrhea. Chronic oral exposure to
                        high concentrations of selenium compounds can produce a
                        disease called selenosis. The major signs of selenosis are hair
                        loss, nail brittleness, and neurological abnormalities (such as
                        numbness and other odd sensations in the extremities).
Strontium               Exposure to low levels of stable strontium has not been shown to
                        affect adult health, but may harm children. Breathing or ingesting
                        low levels of radioactive strontium has not been shown to affect
                        health. High levels of radioactive strontium can damage bone
                        marrow and cause anemia and prevent the blood from clotting
                        properly.
Sulfate                 The collective evaluation of the noncancer data in humans
                        suggests that acute exposures to sulfate exert a laxative effect and
                        sometimes diarrhea following acute exposures to high
                        concentrations. However, these effects are not observed for
                        longer-term exposures.
Vanadium                The health effects in people of ingesting vanadium are unknown;
                        however, animals that ingested very large doses have died.
Zinc                    If large doses of zinc are taken by mouth even for a short time,
                        stomach cramps, nausea, and vomiting may occur. Ingesting high
                        levels of zinc for several months may cause anemia, damage the
                        pancreas, and decrease levels of high-density lipoprotein
                        cholesterol.
                                                                                           APPENDIX C
                                                                                            Page 1 of 1 

Figure C-1 identifies additional exceedances at Kingston, Colbert,1 and Shawnee
Fossil Plants. The figure indicates the plant, constituent, and the number of
times the exceedance was repeated during the scope of our testing.

Figure C-1: Additional Exceedances at Kingston, Colbert, and Shawnee
                                                                 Number of
Plant                                        Constituent
                                                                 Exceedances
Kingston                                     Arsenic                  1
                                             Aluminum                 3
                                             Ammonia                  3
                                             Antimony                 4
                                             Arsenic                  4
                                             Chromium                 1
Colbert                                      Iron                     3
                                             Manganese                3
                                             Nitrite + Nitrate        1
                                             Strontium                2
                                             Sulfate                  2
                                             Vanadium                 3
                                             Zinc                     1
Shawnee                                      Boron                    4

The Allen Fossil Plant does not have required monitoring constituents, but the
February 2008 monitoring report noted that while no Maximum Contaminant
Level exceedances had occurred, one well had an arsenic level equal to the
current Maximum Contaminant Level. The report also noted that levels of
arsenic for that well have typically exceeded the Maximum Contaminant Level.
Also, a different well had an arsenic level equal to or greater than the Maximum
Contaminant Level for two of the last five biannual sampling events. The report
concluded that the arsenic levels are potentially due to contamination associated
with ash leachate from the inactive West Ash Pond.




                                                            
1
     Colbert is being monitored due to prior issues with a sinkhole that developed in a coal combustion
     product landfill. Colbert has undergone the Alabama Risk-based Corrective Action process and is
     undergoing sitewide monitoring. Many of the exceedances are related to a Metal Cleaning Pond.
APPENDDIX D
 Page 1 of 5 
APPENDDIX D
 Page 2 of 5 
APPENDDIX D
 Page 3 of 5 
APPENDDIX D
 Page 4 of 5 
APPENDDIX D
 Page 5 of 5 
